HHS/OIG - Audit, "Review of Aid to Families with Dependent Children Overpayment Recoveries by the Wisconsin Department of Workforce Development," (A-05-02-00031)
Department
of Health and Human Services
"Review of Aid to Families with Dependent Children Overpayment Recoveries
by the Wisconsin Department of Workforce Development," (A-05-02-00031)
August 5, 2002
Complete Text of Report is available in PDF format
(789 kb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
Federal regulations require that states pursue Aid to Families with Dependent
Children (AFDC) overpayments made prior to October 1, 1996, and make appropriate
refunds to the Federal Government. This final report points out that the State
of Wisconsin had not made such refunds for overpayments collected ($10.7 million
Federal share) during the period July 1, 1996 through September 30, 2001. In
addition to procedural corrections, we recommended financial adjustments totaling
$10.7 million.